APPENDIX A
UNPUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 19-2216
KUANG BAO OU-YOUNG,
Plaintiff-Appellant,
v.
JOHN G. ROBERTS, JR.; ANTHONY M.
KENNEDY; STEPHEN BREYER; RUTH BADER
GINSBURG; SAMUEL A. ALITO; MAXINE M.
CHESNEY; WILLIAM H. ORRICK; LUCY H.
KOH; BETH LABSON FREEMAN; D. LOWELL
JENSEN; TERRENCE W. BOYLE; JOSEPH C.
SPERO; SUSAN VAN KEULEN; SUSAN Y.
SOONG; ALEX G. TSE; BRIAN J. STRETCH;
BARBARA J. VALLIERE; DANIEL KALEBA;
SHIAO LEE; MAIA PEREZ; DONALD M.
O’KEEFE; ROBERT D. PETTIT; MARC A.
HARWELL;
CHRIS
YAMAGUCHI;
MARY
GUTTORUSON; J. C. HOLLAND; T. SMITH; A.
W. RUPSKA; L. WHEAT; R. KOCH; JOSEPH S.
ZONNO; L. GRADDY; CHARLES L. GRIFFIN; J.
WIGGINS; JAMES MCNAIR THOMPSON,
Defendant-Appellee.

-la-

Appeal from the United States District Court for
the Eastern District of North Carolina, at Raleigh.
James C. Dever III, District Judge. (5:18-ct-03272D)
Submitted: March 10, 2020
Decided: March 12, 2020
Before NIEMEYER and AGEE, Circuit Judges, and
SHEDD, Senior Circuit Judge.
Affirmed by unpublished per curiam opinion.
Kuang Bao Ou-Young, Appellant Pro Se.
Unpublished opinions are not binding precedent in
this circuit.
PER CURIAM:
Kuang Bao Ou-Young appeals the district court’s
order dismissing his 42 U.S.C. § 1983 (2018)
complaint without prejudice for failure to comply
with court’s previous order directing him to file a
signed
amended
complaint
and
proposed
summonses within 21 days of the court’s order.* See
* Because the district court dismissed Ou-Young’s action “for
procedural reasons unrelated to the contents of the
pleadings,” we have jurisdiction over this appeal. Goode v.
Cent. Va. Legal Aid Soc’y, Inc., 807 F.3d 619, 624 (4th Cir.
2015).
-2a-

Fed. R. Civ. P. 41(b). We review a district court’s
dismissal under Rule 41(b) for abuse of discretion.
Simpson v. Welch, 900 F.2d 33, 25-36 (4th Cir.
1990). We have reviewed the record and find no
abuse of discretion. Accordingly, we affirm for the
reasons stated by the district court. Ou-Young v.
Roberts, Jr., No. 5:18-ct-03272-D (E.D.N.C. Oct. 2,
2019). We dispense with oral argument because the
facts and legal contentions are adequately
presented in the materials before this court and
argument would not aid the decisional process.
AFFIRMED

-3s-

APPENDIX B
IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF NORTH
CAROLINA
WESTERN DIVISION
No. 5:18-CT-3272-D
KUANG BAO OU-YOUG,

)
)

Plaintiff,

)
)

v.

)

JOHN G. ROBERTS, JR., et al.

ORDER

)
)
)

Defendants. )
On September 28, 2018, Kuang Bao Ou-Young
(“Ou-Young” or “plaintiff’), proceeding pro se. filed
this action under Bivens v. Six Unknown Named
Agents of Federal Bureau of Narcotics. 403 U.S.
388 (1971) [D.E. 1], On August 30, 2019, United
States District Judge Flanagan directed Ou-Young
to file an amended complaint together with
proposed summonses, and warned Ou-Young that
his failure to comply would result in the dismissal
of this action without prejudice [D.E. 17]. On
September 12, 2019, the clerk reassigned the action
to this court [D.E. 18].
Ou-Young did not comply with the order, and the
time within which to do so has expired. The court
DISMISSES the action without prejudice. See
Clack v. Rappahannock Reg’l Staff. 590 F. App’x
-4a-

291-92 (4th Cir. 2015) (per curiam) (unpublished);
Ballard v. Carlson. 882 F.2d 93, 95-96 (4th Cir.
1989).
SO ORDERED. This 2 day of October 2019.

/s/ James Dever
JAMES C. DEVER III
United States District Judge

-5a-

APPENDIX C
FILED: May 26, 2020
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 19-2216
(5:18-ct-03272-D)
KUANG BAO OU-YOUNG
Plaintiff - Appellant
v.
JOHN G. ROBERTS, JR.; ANTHONY M.
KENNEDY; STEPHEN BREYER; RUTH BADER
GINSBURG; SAMUEL A. ALITO; MAXINE M.
CHESNEY; WILLIAM H. ORRICK; LUCY H.
KOH; BETH LABSON FREEMAN; D. LOWELL
JENSEN; TERRENCE W. BOYLE; JOSEPH C.
SPERO; SUSAN VAN KEULEN; SUSAN Y.
SOONG; ALEX G. TSE; BRIAN J. STRETCH;
BARBARA J. VALLIERE; DANIEL KALEBA;
SHIAO LEE; MA.IA PEREZ; DONALD M.
O’KEEFE; ROBERT D. PETTIT; MARC A.
HARWELL;
CHRIS
YAMAGUCHI;
MARY
GUTTORUSON; J.C. HOLLAND; T. SMITH; A. W.
RUPSKA; L. WHEAT; R. KOCH; JOSEPH S.
ZONNO; L. GRADDY; CHARLES L. GRIFFIN; J
WIGGINS; JAMES MCNAIR THOMPSON
Defendants - Appellees
-6a-

ORDER
The petition for rehearing en banc was circulated
to the full court. No judge requested a poll under
Fed. R. App. P. 35. The court denies the petition forrehearing en banc.
For the Court
/s/ Patricia S. Connor. Clerk

-7a-

APPENDIX D
In the United States District Court for the
Eastern District of North Carolina
Plaintiffs Notice of Constitutional Question
Pursuant to Federal Rule of Civil Procedure 5.1,
plaintiff Kuang-Bao Ou-Young hereby gives notice
that
this
Complaint
raises
questions
of
constitutional validity as to 18 USC §§ 4241-4248,
the Criminal Justice Act of 1964, 18 USC § 3006A,
and the Judicial Conduct and Disability Act of
1980, 28 USC §§ 351-364.
Complaint
Jury Trial Demanded
Case No. 5:18-ct-03272-BO
Kuang-Bao Ou-Young, plaintiff pro se and inmate,
Reg. N. 24238-111,
vs.
John G. Roberts Jr., chief justice, U.S. Supreme
Court; Anthony M. Kennedy, retired associate
justice, U.S. Supreme Court; Stephen G. Breyer,
associate justice, U.S. Supreme Court; Ruth Bader
Ginsburg, associate justice, U.S. Supreme Court;
Samuel A. Alito Jr., associate justice, U.S. Supreme
Court; Maxine M. Chesney, district judge, U.S.
district court for the northern district of California
(“first district court”); William H. Orrick, district
judge, first district court; Lucy H. Koh, district
judge, first district court; Beth Labson Freeman,
district judge, first district court; D. Lowell Jensen,
retired district judge, first district court; Terrence
B. Boyle, district judge, U.S. district court for the
eastern district of North Carolina (“second district
-8a-

court”); Joseph C. Spero, chief magistrate judge,
first district court; Susan van Keulen, magistrate
judge, first district court; Susan Y. Soong, clerk,
first district court; Alex G. Tse, acting U.S. attorney
for the northern district of California; Brian J.
Stretch, former U.S. attorney for the northern
district of California; Barbara J. Valliere, chief,
criminal division, U.S. attorney’s office for the
northern district of California (“first U.S. attorney’s
office”); Daniel Kaleba, assistant U.S. attorney
(“AUSA”), first U.S. attorney’s office; Shiao Lee,
AUSA, first U.S. attorney’s office; Maia Perez,
AUSA, first U.S. attorney’s office; Donald M.
O’Keefe, U.S. marshal for the northern district of
California; Robert D. Pettit, acting U.S. marshal for
the eastern district of North Carolina; Marc A.
Harwell, supervisory deputy U.S. marshal, San
Jose Office, U.S. marshal for the northern district
of California; Chris Yamaguchi, court security
officer (“CSO”), San Jose courthouse, first district
court; Mary Guttoruson, CSO, San Jose courthouse,
first district court; J. C. Holland, complex warden,
Federal Correctional Complex, Butner, North
Carolina; T. Smith, warden, Federal Medical
Center (“FMC”), Butner, North Carolina; A. W.
Rupska, associate warden, FMC-Butner, North
Carolina; L. Wheat, chief of psychology, FMCButner, North Carolina; R. Koch, forensic
psychologist, FMC-Butner, North Carolina; Joseph
S. Zonno, forensic psychologist, FMC-Butner, North
Carolina; L. Graddy, staff psychiatrist, FMCButner, North Carolina; Charles L. Griffin, case
manager, FMC-Butner, North Carolina; J. Wiggins,
counselor, FMC-Butner, North Carolina; and
-9a-

James McNair Thompson, defense counsel in the
underlying criminal case, defendants.
JURISDICTION AND VENUE
This action is brought under the Federal Tort
Claims Act, 28 USC §§ 2671-2680, jurisdiction is
under 28 USC § 1346(b). Venue is proper under 18
USC § 4247(g) as inmate has been civilly
committed at FMC-Butner since February 9, 2018.
INTRODUCTION
On September 7, 1949, Congress enacted “63 stat
686 now codified in 18 USC §§ 4244-4248, “|t]o
provide for the care and custody of insane persons
charged with or convicted of offenses against the
United States ...” Greenwood v. United States, 350
US 366, 367 (1956). However, 18 USC §§ 4241-4248
constitute unconstitutional statutes as set forth
below. Moreover, this Complaint challenges
constitutional validity of the Criminal Justice Act
of 1964, 18 USC § 3006A, as well as the Judicial .
Conduct and Disability Act of 1980, 28 USC §§ 351364.
A. Greenwood v. United States Represents
Unconstitutional Holding by the U.S. Supreme
Court
The high court has justified its own ruling: “The
petitioner came legally into custody of the United
States, ... The District Court has found that the
accused is mentally incompetent to stand trial at
the present time and that, if released, he could
probably endanger the officer, property, and other
-10a-

interests of the United States. ... [T]he District
Court has entered an order retaining and
restraining petitioner, ... This commitment, and ...
the legislation authorizing commitment in the
context of this case, is plainly within congressional
power under the Necessary and Proper Clause.”
Green wood at 375.
However, “[the accused] is entitled to an
acquittal of the specific crime charged if upon all
evidence there is reasonable doubt whether he was
capable in law of committing crime.” Davis v.
Untied States, 160 US 469, 484 (1885). “[T]he Due
Process Clause affords an incompetent defendant
the right not to be tried.” Medina v. California, 505
US 437, 449 (1992) (citing Drope v. Missouri, 420
US 162, 172-173 (1975) and Pate v. Robinson, 383
US 375, 386 (1966)).
Furthermore, “there are significant differences
between a claim of incompetence and a plea of not
guilty by reason of insanity.” Medina at 448 (citing
Drope at 176-177 and Jackson v. Indiana, 406 US
715, 739 (1993)). Therefore, the District Court
order retaining and restraining Greenwood
constitutes “unreasonable seizure” in violation of
the Fourth Amendment as well.
In Bishop v. United States, 350 US 961 (1956),
the high court reversed D.C. District Court order
denying the motion to vacate the defendant’s
conviction for murder under 28 USC § 2255.
Defendant Bishop was declared temporarily insane,
but there was substantial evidence to support the
finding that Bishop was competent when he stood
-11a;

trial earlier.
Thus, Bishop v. United States has overruled
Greenwood v. United States and acknowledged that
the latter ruling represents unconstitutional
holding by the U.S. Supreme Court.
B. Washington v. Harper Represents
Unconstitutional Holding by the U.S. Supreme
Court
The majority opinion in the ruling has stated:
“The central question before us is whether a
judicial hearing is required before the State may
treat a mentally ill prisoner with antipsychotic
drugs against his will. Resolution of the case
requires us to discuss the protections afforded the
prisoner under the Due Process Clause of the
Fourteenth Amendment.” Washington v. Harper,
494 US 210, 213 (1990).
“Antipsychotic drugs
are medications
commonly used in treating mental disorders such
as schizophrenia. ... As found by the trial court, the
effect of these and similar drugs is to alter the
chemical balance in the brain, the desired result
being that the medication will assist that patient in
organizing his or her thought process and regaining
state of mind.” Harper at 214.
“[G]iven the requirements of the prison
environment, the Due Process Clause permits the
State to treat a prison inmate who has a serious
mental illness with antipsychotic drugs against his
will, if the inmate is dangerous to himself or others
-12a-

and the treatment is in the inmate’s medical
interest.” Harper at 227.
However, “the Due Process Clause of the
Fourteenth Amendment confers a significant
liberty interest in avoiding unwanted medical
treatment.” Cruzan v. Director, Mo. Health Dept.,
497 US 261, 304 (1990) (citing Harper at 221-222).
Moreover, “the freedom from unwanted medical
attention is unquestionably among these principles
‘so rooted in the traditions and conscience of our
people as to be ranked as fundamental.’” Cruzan at
305 (citing Snyder v. Massachusetts, 291 US 97,
105 (1934)).
“If the First Amendment means anything, it
means that a State has no business telling a man
... what books he may read or what films he may
watch. Our whole constitutional heritage rebels at
the thought of giving government the power to
control men’s minds.” Stanley v. Georgia, 394 US
557, 565 (1969).
The First Amendment provides: “Congress shall
make no law respecting an establishment of
religion, or prohibiting the free exercise thereof; of
abridging the freedom of Speech, or of the Press ...”
And it goes without saying that religious and
political freedom originates solely from “men’s free
minds.”
“Because that right is so fundamental to our
scheme of individual liberty, its restriction may not
be justified by the need to ease the administration
of otherwise valid criminal laws. See Smith v.
-13a-

California, 361 US 147 (1957).” Stanley at 568.
Washington v. Harper therefore represents
unconstitutional holding by the U.S. Supreme
Court.
C. Nevada Courts Have Denied Riggins a Full and
Fair Trial in Riggins v. Nevada
In Riggins v. Nevada, 504 US 127 (1992), the
U.S. Supreme Court has reversed Nevada Court’s
judgment where defendant claims that forced
administration of antipsychotic drug during trial
violated rights under the Sixth and Fourteenth
Amendments.
The dissenting opinion in the subject ruling has
raised the issue: “We took this case to decide
‘[wjhether forced medication during trial violates a
defendant’s constitutional right to a full and fair
trial.’ ... The Court declines to answer this question
one way or the other, stating only that a violation
of Harper ‘may well have impaired the
constitutionally protected rights Riggins invokes.’
... As we have stated, ‘we ordinarily do not consider
questions outside those presented in the petition
for certiorari.’ ... The Harper issue, in any event,
does not warrant reversal of Riggins’ conviction.”
Riggins at 153.
The majority opinion in the ruling has stated:
“We note that during the July 14 hearing Riggins
did not contend that he had the right to be tried
without Mellaril if its discontinuation rendered him
incompetent. .. The question whether a competent
criminal defendant may refuse antipsychotic
-14a-

medication if cessation of medication would render
him incompetent at trial is not before us. “ Riggins
at 136. However, this very issue determines
whether Riggins had “a full and fare trial.”
If cessation of medication renders Riggins
incompetent at trail, he has constitutional right not
to be tried. Drope at 172-173. Thus, his trial has
denied Riggins the Fifth Amendment privilege
against self-incrimination and Sixth Amendment
right to counsel. Estelle v. Smith, 451 US 454
(1981). For this reason, Nevada courts have denied
Rigggins “a full and fair trial.” Hence forced
medication of antipsychotic drug during trial has
denied Riggins the Fifth Amendment privilege
against self-incrimination and Sixth Amendment
right to counsel.
D. Sell v. Untied States Represents
Unconstitutional Holding by the U.S. Supreme
Court
The ruling in Sell v. United States, 539 US 166
179 (2003) has held: “These two cases, Harper and
Riggins, indicate that the Constitution permits the
Government
involuntarily
to
administer
antipsychotic drugs to mentally ill defendant facing
criminal charges in order to render that defendant
competent to stand trial, but only if ...”
The majority opinion in Harper has ruled:
“[G]iven
the
requirements of the
prison
environment, the Due Process Clause permits the
State to treat prison inmate who has a serious
mental illness with antipsychotic drugs against his
-15a-

will, if the inmate is ...” Harper at 227.
Both Harper and Sell allow forced medication
under
similar
circumstances.
Yet
Harper
constitutes unconstitutional holding, supra. On the
other hand, Nevada courts have denied Riggins a
full and fair trial in Riggins v. Nevada due to forced
medication during trial. Thus, Sell v. Untied States
represents unconstitutional holding by the U.S.
Supreme Court.
E. The Right to Self-Representation under the
Sixth Amendment is Absolute
The Sixth Amendment provides: “In all criminal
prosecutions, the accused shall enjoy the right to a
speedy and public trial ... to be informed of the
nature and cause of the accusation, to be confronted
with the witnesses against him, to have compulsory
process for obtaining witnesses in his favor, and to
have the Assistance of Counsel for his defense.”
Thus, the defendant “has a constitutional right
to proceed without counsel when he voluntarily and
intelligently elects to do so.” Faretta v. California,
422 US 806, 807 (1985). The ruling is based on the
premise that “|u]nless the accused has acquiesced
in [representation through counsel], the defense
presented is not the defense guaranteed him by the
Constitution, for, in a very real sense, it is not his
defense.” Faretta at 821.
On the other hand, the trial system in this
country allows the attorney representing a
defendant “full authority to manage the conduct of
trial” — an authority without which “ [t]he adversary
-16a-

process could not function effectively.” “[T]he client
must accept the consequences of the lawyer’s
decision to forgo cross-examination, to decide not to
put certain witnesses on the stand, or to decide not
to disclose the identity of certain witnesses in
advance of trial.” Taylor v. Illinois, 484 US 400, 418
(1988).
Accordingly, the ruling has allowed the counsel
to restrict or relinquish a defendant’s Sixth
Amendment right to be confronted with the
witnesses against him or the right to obtain
witnesses in his favor. Yet “’it is the accused, not
his counsel who must be informed of the nature and
cause of the accusation,’ who must be ‘confronted
with the witnesses against him,’ and who must be
accorded ‘compulsory process for obtaining
witnesses in his favor.’” Faretta at 819. Thus, when
a criminal defendant asserts such rights under the
adversary process, he has to waive the right to
counsel. The right to self-representation under the
Six Amendment is therefore absolute.
F. The Standby Counsel Provides the Technical
Legal Knowledge for a Pro Se Defendant to Present
His Own Defense
In Godinez v. Moran, 509 US 389 (1993), the
high court has held: “[T]here is no reason to believe
that the decision to waive counsel requires an
appreciably higher level of mental functioning than
the decision to waive other constitutional rights,”
and that “the competence that is required of a
defendant to waive his right to counsel is the
competence to waive the right, not the right to
-17a-

represent himself.” Godinez at 399. Therefore,
“[o]ne might not be insane in the sense of being
incapable of standing trial and yet lack the capacity
to stand trial without the benefit of counsel.”
Godinez at 399-400 (quoting Massy v. Moore, 348
US 105, 108 (1954)).
Nonetheless, “[a] defendant’s right to self­
representation plainly encompasses certain rights
to have his voice heard. The pro se defendant must
be allowed to control the organization and content
of his own defense, to make motions, to argue his
points of law, to participate in voir dire, to question
witnesses and to address the court and the jury at
appropriate points in the trial.” McKaskle v.
Wiggins, 465 US 168, 174 (1984).
Still, “[a] defendant’s Sixth Amendment rights are
not violated when a trial judge appoints a standby
counsel - even over the defendant’s objection - to
relieve the judge the need to explain and enforce
basic rules of courtroom protocol and to assist the
defendant in overcoming routine obstacles ...”
Wiggins at 184.
Accordingly, the standby counsel provides the
technical legal knowledge for a pro se defendant to
present his own defense guaranteed by the
Constitution.
G. Indiana v. Edwards Represents
Unconstitutional Holding by the U.S. Supreme
Court
In Indiana v. Edwards, 554 US 164, 174 (2008),
the high court has started with the assumption:
-18a-

“that a criminal defendant has sufficient mental
competence to stand trial (i.e. the defendant meets
Dusky’s standard [Dusky v. United States, 362 US
402 (1968)]), and that the defendant insists on
representing himself during that trial.”
The ruling has concluded that “the Constitution
permits judges to take realistic account of the
particular defendant’s mental capacities by asking
whether a defendant who seeks to conduct his own
defense at trial is mentally competent to do so.”
Edwards at 177. However, a fundamental flaw
exists in this decision.
Based on McKaskle v. Wiggins, the standby
counsel provides the technical legal knowledge for a
pro se defendant to present his own defense. As a
result, the trial judge should appoint standby
counsel to assist a pro se criminal defendant “in
overcoming routine obstacles that stand in the way
of achievement of his own clearly stated goals.”
Wiggins at 184.
Thus, a defendant who seeks to conduct his own
defense at trial is as competent as his standby
counsel. There exists no basis for judges to take
account of particular defendant’s mental capacities.
Indiana v. Edwards represents unconstitutional
holding by the U.S. Supreme Court.
H. 18 USC §§ 4241-4248 Constitute
Unconstitutional Criminal Statutes
Greenwood v. Untied States, Washington v.
Harper, Sell v. United States, and Indiana v.
Edwards represent unconstitutional holdings by
-19a-

the U.S. Supreme Court. These rulings constitute
attempts by the high court to legitimize 18 USC §§
4241-4248.
“A detailed history of the legislation is set forth
in the opinion of the Court of Appeals. ... It is
sufficient to note here that the bill was proposed by
the Judicial Conference of the United States ...
followed by consultation with federal and circuit
judges.” Greenwood at 373.
Yet “[t]he judicial power of federal courts is
constitutionally
restricted
to
‘cases’
and
‘controversies.’ ...[T]hose words limit the business
of federal courts to questions presented in an
adversary context ...” Flast v. Cohn, 392 US 83, 9394 (1968).
Furthermore, “[t]he Congress shall have Power
... [t]o make all Laws which shall be necessary and
proper for carrying into Execution the forgoing
Powers, and all other Powers vested by this
Constitution in the Government of the United
States ...” Clause 18, Section 8, Article I of the
Constitution.
Based on the statutes’ violation of said provisions
of the Constitution as well as the First, Fourth,
Fifth, and Sixth Amendments, 18 USC §§ 42414248 constitute unconstitutional criminal statutes.
Thus, said criminal statutes are beyond the
jurisdiction of federal courts. Ex Parte Nielsen, 131
US 176, 185 (1889).
I. The U.S. Supreme Court Has Persistently
Abused Judicial Discretion in Its Review on Writs
-20a-

of Certiorari
Rule 10 of the U.S. Supreme Court states: “A
petition for a writ of certiorari is not a matter of
right, but of judicial discretion.” Rule 10(c)
provides: “A petition for a writ of certiorari will be
granted” when “a state court or a United States
court of appeals ... has decided an important
federal question in a way that conflicts with a
relevant decision of this Court.”
It has been shown that Greenwood v. United
States conflicts with Davis v. United States,
Washington v. Harper contradicts Stanley v.
Georgia, Sell v. United States reverses Riggins v.
Nevada, and Indiana v. Edwards distorts Faretta v.
California as well as McKaskle v. Wiggins. Yet
there exists no provision to review the high court’s
later decisions when they interfere with its own
earlier rulings.
Justice Kennedy has delivered the opinion in
Washington v. Harper. Justice Breyer has delivered
the opinion in Sell v. United States, which justice
Kennedy and justice Ginsburg have joined. Justice
Breyer has delivered the opinion in Indiana v.
Edwards, which chief justice Roberts, justice
Kennedy, justice Ginsburg, and justice Alito have
joined.
A judge is not absolutely immune from criminal
liability. Ex Parte Virginia, 100 US 339, 348-349
(1880). Thus, said justices are liable for
aforementioned unconstitutional holdings as well
as the unconstitutionality of 18 USC §§ 4241-4248.
-21a-

FACTUAL BACKGROUND
1. On August 28, 2015 inmate submitted his
Seventh Petition for Impeachment against thenpresident of the U.S. Barak Obama, judge Chesney,
judge Orrick, judge Koh, judge Freeman, judge
Spero, magistrate judge Nathanael Coursins, thenmagistrate judge Paul Singh Grewal, then-U.S.
attorney general Loretta D. Lynch, then-U.S.
attorney for the northern district of California
Melinda Haag, marshal O’Keefe, deputy marshal
Harwell, and others to the House Judiciary
Committee. After naming former U.S. attorney
Stretch as her successor, former U.S. attorney
Haag resigned from office on September 1, 2015.
2. As follow-ups to the Seventh Petition for
Impeachment, inmate submitted his Eighth and
Ninth Petitions for Impeachment against thenattorney general Lynch and then-FBI director
James Comey to the House Judiciary Committee on
August 16, and October 11, 2016 respectively.
3. Inmate filed a complaint against Star One
Credit Union, Santa Clara County sheriffs
department, Santa Clara County district attorney’s
office, and others on December 19, 2016 (Case No.
5:16-cv-07225-EJD, “Star One”). Doc. No. Al. The
clerk’s office reassigned the case to district judge
Edward J. Davila after inmate declined to proceed
before judge Cousins.
4. On January 3, 2017, first district court
appointed judge van Keulen to replace judge
Grewal.
-22a-

5. On February 3, 2017, Santa Clara County filed
a complaint against the Trump administration
(Case No. 3:17-cv-00574-WHO), Doc. No. Bl. This
case is also known as the 11 Sanctuary County’
lawsuit.
6. An order signed by judge Davila on March 21,
2017 directed inmate to explain why no defendant
had appeared in Star One, Doc. No. A16. Inmate
replied to the order to show cause on March 28,
2017, Doc. No. A17.
7. Inmate moved to intervene in Sanctuary
County and to disqualify both judge Orrick and
judge Cousins from the case on March 29, 2017,
Doc. No. B84. An order signed by judge Davila on
March 29, 2017 dismissed Star One without
prejudice, Doc. No. A18. On April 3, 2017, judge
Orrick denied the motion to intervene in Sanctuary
County, Doc. No. B85.
8. On April 26, 2017, inmate applied for
reconsideration of the dismissal of Star One, Doc.
No. A19. Judge Jensen, instead of judge Davila,
presided over the April 27, 2017 hearing on the ex
parte application. After inmate questioned the
legitimacy of the hearing, judge Jensen ordered
CSO Yamaguchi and CSO Guttoruson to escort
inmate out of judge Davila’s courtroom. Another
order signed by judge Davila on April 27, 2017
denied said application for reconsideration, Doc.
No. A20.
9. Judge Davila normally hears criminal cases on
Mondays. Thus, inmate arrived at his courtroom
-233.-

around 1:30 p.m. on May 1, 2017. Before judge
Davila started the afternoon session, former U.S.
attorney Stretch directed CSO Yamaguchi and CSO
Guttoruson to escort inmate out of judge Davila’s
courtroom. Once outside the courtroom, a group of
deputy U.S. marshals and CSOs joined CSO
Yamaguchi and CSO Guttoruson to detain inmate
at the lobby of the San Jose courthouse. U.S.
Marshals Service (“USMS”) booked inmate into
Oakland Alameda County Jail later that evening.
10. On May 2, 2017, first U.S. attorney’s office
filed a complaint to institute a criminal case
against inmate (Case No. 3:17-cr-00263-MMC),
Doc. No. 1. During the initial appearance on the
same day, judge van Keulen appointed attorney
Thompson as defense counsel, Doc. No. 4. First U.S.
attorney’s office then moved for inmate’s detention,
Doc. No. 2.
11. During a May 5, 2017 detention hearing, first
U.S. attorney’s office renewed its motion for
detention, Doc. No. 3. On May 8, 2017, judge van
Keulen referred inmate to Pretrial Services for
mental health assessment, Doc. No. 5. Judge van
Keulen ordered inmate to be detained under 18
USC § 3142(f)(2) on May 8, 2017 as well, Doc. No.
6.
12. On May 11, 2017, first U.S. attorney’s office
filed an indictment in the criminal case, Doc. No. 7.
Also on May 11, 2017, judge Davila recused himself
from the criminal case, Doc. No. 8. The clerk’s office
then reassigned the case to judge Koh, Doc. No. 9.
Judge Koh, however, recused herself from the
-24a-

criminal case on May 11, 2017 as well, Doc. No. 10.
13. On May 12, 2017, the clerk’s office reassigned
the criminal case to judge Freeman, Doc. No. 11.
Still, judge Freeman recused herself from the case,
Doc. No. 12. The clerk’s office than reassigned the
criminal case to judge Chesney on May 12, 2017 as
well, Doc. No. 13.
14. On May 15, 2017, the clerk’s office
transferred the criminal case from judge van
Keulen to judge Spero, Doc. No. 14. Also on May 15,
2017, attorney Thompson moved for psychiatric
examination on inmate, Doc. No. 15.
15. On May 19, 2017, judge Spero ordered
inmate’s conditional release from Oakland Alameda
County Jail, Doc. No. 18.
16. Inmate moved to dismiss the criminal case
and to disqualify first U.S. attorney’s office,
attorney Thompson, as well as judge Chesney and
judge Spero from the case on June 6, 2017, Doc. No.
24.
17. During a June 7, 2017 hearing in the
criminal case, judge Chesney continued the hearing
on inmate’s June 6, 2017 motion to dismiss and
joinder motions to disqualify, Doc. No. 24, as well
as the hearing on attorney Thompson’s May 15,
2017 motion for psychiatric examination, Doc. No.
15, until July 26, 2017, Doc. No. 25.
18. On July 14, 2017, inmate moved again to
dismiss the criminal case and to disqualify first
U.S. attorney’s office, attorney Thompson, as well
-25a-

as judge Chesney and judge Spero from the case,
Doc. No. 29. During a hearing later that day, judge
Spero directed inmate to participate in competency
evaluation with a Dr. Collins at University of San
Francisco, Doc. No. 30.
19. First U.S. attorney’s office opposed inmate’s
June 6, 2017 motion to dismiss and joinder motions
to disqualify, Doc. No. 24, as well as his July 14,
2017 second motion to dismiss and joinder second
motions to disqualify, Doc. No. 29, in the criminal
case on July 25, 2017, Doc. No. 34.
20. On August 9, 2017, inmate walked out of her
courtroom as judge Chesney was about to rule on
the June 6, 2017 motion to dismiss and joinder
motions to disqualify as well as the July 14, 2017
second motion to dismiss and joinder second
motions to disqualify in the criminal case.
Afterwards, judge Chesney ordered inmate’s arrest,
Doc. No. 37.
21. Inmate petitioned U.S. Department of Justice
to intervene in the criminal case on August 11,
2017, Doc. No. 40.
22. In response, judge Chesney directed USMS to
take inmate into custody on August 15, 2017, Doc.
No. 41.
23. Judge Chesney ordered inmate to remain in
jail for competency/mental health evaluation
during an August 23, 201 hearing in the criminal
case.
24. On August 24, 2017, a psychologist at Santa
-26a-

Rita Alameda County Jail performed such an
evaluation as judge Chesney ordered. According to
the prison psychologist’s evaluation report, inmate
was in good mental health to stand trial.
25. Also on August 24, 2017, judge Chesney
ordered inmate to be committed to the custody of
the Attorney General for a thirty-day psychological
evaluation under 18 USC § 4241(a), Doc. No. 46.
26. Inmate submitted a request for his release
from Santa Rita Alameda County Jail to judge
Chesney on September 5, 2017. Three days later,
judge Chesney forwarded the request to attorney
Thompson “for whatever action he deem fed]
appropriate.”
27. On September 18, 2017, inmate released
attorney Thompson as his counsel in the criminal
case.
28. Based on judge Chesney’s August 24, 2017
order for commitment, Doc. No. 46, USMS booked
inmate into Metropolitan Detention Center Los
Angeles (“MDCLA”) on September 28, 2017 for a
thirty-day mental health evaluation.
29. On October 2, 2017, inmate submitted a
Notice of Withdrawal of Insanity Defense to judge
Chesney, On October 10, 2017, judge Chesney
replied in response to the notice: “Please be advised
that, as the Court has not yet received the report
regarding the
competency evaluation,
Mr.
Thompson remains your attorney of record.”
30. On October 25, 2017, inmate submitted a
-27 a-

Motion to Dismiss to judge Chesney. On October
31, 2017, judge Chesney replied in response to the
Motion to Dismiss: “Your seventh letter to the
Court, dated October 25, 2017, received October 30,
2017, and titled ‘Defendant’s Motion to Dismiss,’
has been forwarded to your attorney of record,
James Thompson.”
31. During the first week of December 2017,
USMS transferred inmate from MDCLA back to
Santa Rita Alameda County Jail. During a
December 13, 2017 competency hearing in the
criminal case, judge Chesney found inmate “unable
to assist counsel in his own defense,” Doc. No. 59.
32. On December 19, 2017, judge Chesney
ordered inmate to be committed to the custody of
the Attorney General and to be hospitalized in a
suitable facility under 18 USC § 4241(d), Doc. No.
62.
33. On January 5, 2018, then-U.S. attorney
Stretch resigned from office.
34. In response to judge Chesney’s December 19,
2017 order for commitment, Doc. No. 62, inmate
filed a Second Motion to Dismiss and Motion to
Disqualify Judge in the criminal case on January 9,
2018, Doc. No. 63.
35. Due to judge Chesney’s December 19, 2017
order for commitment, Doc. No. 62, USMS
transferred inmate from Santa Rita Alameda
County Jail on February 5, 2018 to FMC-Butner,
North Carolina, on February 9, 2018 for a fourmonth competency evaluation and restoration
-28a-

treatment.
36. Judge Chesney denied inmate’s Second
Motion to Dismiss, Doc. No. 63, as well as all
previous motions to disqualify in the criminal case
on February 28, 2018, Doc. No. 64, while left
joinder Motion to Disqualify Judge still pending.
37. On April 5, 2018, inmate petitioned second
district court for a Writ of Habeas Corpus to vacate
judge Chesney’s December 19, 2017 order for
commitment and her denial of the January 9, 2018
Second Motion to Dismiss in the criminal case
(Case No. 5:18-hc-2081-BO), Doc. No. Dl.
38. The clerk’s office assigned inmate’s April 5
Petition for a Writ of Habeas Corpus to judge Boyle
for review on April 24, 2018.
39. On April 25, 2018, judge Chesney continued
the hearing on inmate’s competency evaluation and
restoration treatment until May 23, Doc. No. 67.
On April 30, judge Chesney further continued the
hearing until July 11, 2018, Doc. No. 71.
40. Based on the April 5, 2018 Petition for a Writ
of Habeas Corpus, inmate submitted his Eleventh
Petition for Impeachment to the House Judiciary
Committee on May 9, 2018.
41. On June 26, 2018, judge Chesney ordered
inmate to be committed at FMC-Butner for
dangerousness study under 18 USC § 4246(a), Doc.
No. 74. Hearing on the study was set for August 15,
2018, On July 2, FMC-Butner requested that
inmate’s dangerousness study be extended for
-29a-

another thirty days, Doc. No. 75. Judge Chesney
granted the request for extension on July 18, Doc.
No. 76, and continued the August 15 hearing until
October 18, 2018, Doc. No. 77.
42. On June 27, 2018, then-U.S. Supreme Court
justice Kennedy announced his retirement.
43. On September 4, 2018, inmate submitted his
Twelfth Petition for Impeachment to the House
Judiciary Committee.
44. Judge Boyle has yet to respond to inmate’s
April 5, 2018 Petition for a Writ of Habeas Corpus
thus far.
CLAIMS
cl. Claim 1: Civil Rights Violation, Fabrication, and
Intimidation
On February 3, 2017, Santa Clara County filed
its “Sanctuary County’ lawsuit against the Trump
administration, Doc. No. Bl. Based on the Seventh
Petition for Impeachment as well as improprieties
at
California
Supreme
Court,
California
Department of Justice, and Santa Clara County,
inmate moved to intervene in Sanctuary County
and to disqualify both judge Orrick and judge
Cousins from the case on March 29, 2017, Doc. No.
B84. Judge Orrick denied the motion to intervene
without opposition from first U.S. attorney’s office,
Santa Clara County or California Department of
Justice on April 3, 2017, Doc. No. B85.
However,

Federal

Rule
-30a-

of Civil

Procedure

24(a)(2) provides: “On timely motion, the court
must permit anyone to intervene who claims an
interest relating to [the property or transaction
that is] the subject of the action, and is so situated
that disposing of the action may as a practical
matter impair or impede the movant’s ability to
protect its interest, unless existing parties
adequately represent that interest.”
Since denial of the motion to intervene covers up
improprieties at California Supreme Court,
California Department of Justice, and Santa Clara
County, the decision has denied inmate the
Fourteenth Amendment rights to “due process of
law” as well as “equal protection of the laws” as to
the state California.
Thus, judge Orrick has colluded with first U.S.
attorney’s office to falsify denial of inmate’s motion
to intervene in Sanctuary County. Both judge
Orrick and former U.S. attorney Stretch have
violated 18 USC §§ 241, 242, 371, 1512(b), and
1512(c).
c2. Claim 2: Civil Rights Violation, Fabrication, and
Intimidation
Former U.S. attorney Stretch had failed to
prosecute judge Orrick after his April 3, 2017
denial of inmate’s motion to intervene in Sanctuary
County. The failure stems from the ruling in
Inmates of Attica Correctional Facility v.
Rockefeller, 447 F.2d 375, 379-380 (2nd Cir. 1973).
“It follows, as an incident of the constitutional
separation of powers, that the courts are not to
-31a-

interfere with the free exercise of the discretionary
powers of the Attorneys of the United States in
their control over criminal prosecutions.”
“Plaintiffs urge, however, that Congress
withdrew the normal prosecutorial discretion for
the kind of conduct alleged here by providing in 42
USC sec. 1987 that the United States Attorney are
‘authorized and required
...
to
institute
prosecutions against all persons violating any the
provision of [18 USC §§ 241, 242]’ (emphasis
supplied), and therefore, that no barrier to a
judicial directive to institute prosecution remains.”
Attica at 381.
“This contention must be rejected, the mandatory
nature of the word ‘required’ as it appears in § 1987
is insufficient to evince a broad Congressional
purpose to bar the exercise of executive discretion
in the prosecution of federal civil rights crimes. ...
such language has never been thought to preclude
the exercise of prosecutorial discretion. ... Nor do
we find the legislative history of § 1987 persuasive
of an intent by Congress to depart so significantly
form the normal assumption of executive
discretion.” Attica at 381. “Thus, we do not read §
1987 as stripping the United States Attorneys of
their normal prosecutorial discretion for the civil
rights crimes specified.” Attica at 382.
Nonetheless, former U.S. attorney Stretch’s
resignation from office on January 5, 2018 has
acknowledged that Congress does intend to strip,
with 42 USC § 1987, the United States Attorneys of
their normal prosecutorial discretion for the civil
-32a-

rights crimes specified. Former U.S. attorney
Stretch has colluded with judge Orrick so as to
evade prosecuting the latter for his denial of the
motion to intervene in Sanctuary County. Both
judge Orrick and former U.S. attorney Stretch have
violated 18 USC §§ 241, 242, 371, 1512(b), and
1512(c).
c3. Claim 3: Civil Rights Violation, Fabrication, and
Intimidation
Upon filing of the Sanctuary County lawsuit on
February 3, 2017, Doc. No. Bl, the clerk’s office
assigned judge Koh to adjudge the case. The City
and County of San Francisco filed a similar civil
complaint against the Trump administration a
week later. The case is also known as the
“Sanctuary City’ lawsuit. The clerk’s office then
reassigned judge Orrick to adjudicate Sanctuary
County based on a Notice of Related Case filed by
the City and County of San Francisco.
Civil Local Rule 3- 12(f)(3) of first district court
provides: “If any judge decides that any of the cases
are related, pursuant to the Assignment Plan, the
Clerk shall reassign all related high-numbered
cases to that judge [assigned to the lowestnumbered case] and shall notify the parties and the
affected Judges accordingly.”
As the City and County of San Francisco filed its
Sanctuary City lawsuit a week after the Sanctuary
Chunky lawsuit, Sanctuary Countyhas a lower case
number than Sanctuary City does. Thus, the clerk’s
office has falsified the reassignment of Sanctuary
-33a-

County to judge Orrick. In so doing, the clerk’s
office has allowed judge Koh to falsify the dismissal
of Star One. Dismissal of Star One would have
stripped inmate of standing to intervene in
Sanctuary County except for his interest as an
injured citizen of the state of California. Thus, both
judge Koh and clerk Soong have violated 18 USC §§
241, 242, 371, 1512(b), and 1512(c).
c4. Claim 4: Civil Rights Violation, Fabrication, and
Intimidation
On December 18, 2016, inmate filed a civil
complaint against Star One Credit Union, Santa
Clara County sheriffs department, Santa Clara
County district attorney’s office, and others, Doc.
No. Al. The complaint has asked first U.S.
attorney’s
office
to
investigate
financial
improprieties relating to inmate’s checking account
with Star One Credit Union as well as the ensuing
cover-up by both said sheriffs department and said
district attorney’s office.
An order signed by judge Davila on March 21,
2017 directed inmate to explain why no defendant
had appeared in Star One, Doc. No. A16. Inmate
replied to the order to show cause on March 28,
2017, Doc. No. A16. An order signed by judge
Davila on March 29, 2017 dismissed Star One
without prejudice, Doc. No. A18. On April 26, 2017,
inmate applied for reconsideration of the dismissal
of Star One, Doc. No. A19. Having retired since
2016, judge Jensen presided over the April 27, 2017
hearing on inmate’s application for reconsideration
without jurisdiction. After inmate questioned the
-34a-

legitimacy of the hearing, judge Jensen ordered
CSO Yamaguchi and CSO Guttoruson to escort
inmate out of judge Davila’s courtroom. Another
order signed by judge Davila on April 27, 2017
denied the application for reconsideration, Doc. No.
A20.
Yet Federal Rule of Civil Procedure 39(a)(2)
provides: “When a jury trial has been demanded
under Rule 38, the action must be designated on
the docket as a jury action. The trial on all issues so
demanded must be by jury unless the court, on
motion or on its own, finds that on some or all of
those issues there is no federal right to a jury trial.”
Thus, judge Jensen has falsified denial of
inmate’s application for reconsideration of
dismissal of Star One so as to prevent the case from
proceeding to trial. The ruling has allowed first
U.S. attorney’s office to evade instituting criminal
prosecution against Santa Clar County sheriffs
department and Santa Clara County district
attorney’s office. Both judge Jensen and former
U.S. attorney Stretch have violated 18 USC §§ 241,
242, 371, 1512(b), and 1512(c), while both CSO
Yamaguchi and CSO Guttoruson have violated 18
USC §§ 241, 242, 371, and 1512(b).
c5. Claim 5: Civil Rights Violation, Fabrication, and
Intimidation
Inmate went to judge Davila’s courtroom around
1:30 p.m. on May 1, 2017 so as to authenticate his
denial of reconsideration of dismissal of Star One.
Before judge Davila started the afternoon session,
-35a-

former U.S. attorney Stretch had CSO Yamaguchi
and CSO Guttoruson escort inmate out of judge
Davila’s courtroom. USMS next arrested inmate
and booked him into Oakland Alameda County
Jail.
Based on deputy marshal Harwell’s sworn
statement, first U.S. attorney’s office filed a
complaint to institute a criminal case against
inmate on May 2, 2017, doc. No. 1. The complaint
has asserted that a group of CSOs arrested inmate
inside the San Jose courthouse on May 1, 2017
because of him attacking CSO Yamaguchi.
However, 18 USC § 3053 authorizes “United
States marshals and their deputies,” rather than
CSOs, to make arrest without warrant. Since the
complaint has stated that CSOs arrested inmate
without warrant on May 1, 2017, first U.S.
attorney’s office has colluded with USMS to falsify
the complaint in the criminal case.
In other words, there exists no probable cause for
inmate’s arrest on May 1, 2017. Kalina v. Fletcher,
522 US 118 (1997). Thus, former U.S. attorney
Stretch, chief Valliere, AUSA Perez, deputy
marshal Harwell, and CSO Yamaguchi have
violated 18 USC §§ 241, 242, 371, 1512(b), and
1512(c), while marshal O’Keefe has violated 18
USC §§ 241, 242, 371, and 1512(b).
c6. Claim 6: Civil Rights Violation, Fabrication, and
Intimidation
Judge van Keulen appointed attorney Thompson
as defense counsel in the criminal case under 18
-36a-

use § 3006A on May 2, 2017, Doc. No. 4.
Nevertheless, “ [t] the Criminal Justice Act of 1964
was enacted to provide compensation for attorneys
appointed to represent indigent defendants in
federal criminal trials.” Ferri v. Ackerman, 444 US
193, 199 (1979).
Being hardly an indigent, inmate initially
intended to retain civil rights attorney Harmeet K.
Dhillon as defense counsel during the May 2, 2017
initial appearance in the criminal case. Yet judge
van Keulen insisted on appointing attorney
Thompson to represent inmate so as to cover up
' falsifying the complaint by both first U.S.
attorney’s office and USMS.
Thus, judge van Keulen has colluded with
attorney Thompson to deny inmate Fourth
Amendment right against “unreasonable seizures,”
Fifth Amendment right to “due process of law,” and
Sixth Amendment right to counsel. Both judge van
Keulen and attorney Thompson have violated 18
USC §§ 241, 242, 371, 1512(b), and 1512(c).
c7. Claim 7: Civil Rights Violation, Fabrication, and
Intimidation
During the May 2, 2017 initial appearance in the
criminal case, inmate informed attorney Thompson
that staffers at Oakland Alameda County Jail
attempted to drug him under the disguise of TB
test during the night before. Yet judge van Keulen
insisted on appointing attorney Thompson as
defense counsel and referred inmate to Pretrial
Services for a mental health assessment on May 8,
-37a-

2017, Doc. No. 5.
The U.S. Supreme Court has held in Estelle v.
Smith, 451 US 454 (1981) that the pretrial mental
health assessment ordered by judge van Keulen
violates inmate’s Fifth Amendment privilege
against self-incrimination and Sixth Amendment .
right to counsel. Thus, both judge van Keulen and
attorney Thompson have violated 18 USC §§ 241,
242, 371, 1512(b), and 1512(c).
c8. Claim 8: Civil Rights Violation, Fabrication, and
Intimidation
Due to his motion to intervene in Sanctuary
County, first U.S. attorney’s office alleged that
inmate posed high flight risk during both the May
2, 2017 initial appearance and the May 5, 2017
detention
hearing in
the
criminal
case.
Subsequently, judge van Keulen set the
preliminary hearing/arraignment for May 23, 2017,
Doc. No. 3. On May 8, 2017, judge van Keulen
ordered inmate to be detained until May 23, 2017,
Doc. No. 6.
Federal Rule of Criminal Procedure 4(b)(1)(B)
provides: “A warrant must describe the offense
charged in the complaint.” Based on its collusion
with USMS to falsify the complaint in the criminal
case, first U.S. attorney’s office has misrepresented
inmate’s flight risk so as to justify inmate’s arrest
without warrant on May 1, 2017.
Thus, judge van Keulen has falsified her May 8,
2017 detention order. Judge van Keulen, former
U.S. attorney Stretch, chief Valliere, and AUSA
-38a-

Perez have violated 18 USC §§ 241, 242, 371,
1512(b), and 1512(c), while marshal O’Keefe has
violated 18 USC §§ 241, 242, 371, and 1512(b).
c9. Claim 9: Civil Rights Violation, Fabrication, and
Intimidation
Based on a special deputy U.S. marshal’s
statement that inmate attacked an CSO inside the
San Jose courthouse on May 1, 2017, first U.S.
attorney’s office filed an indictment in the criminal
case on May 8, 2017, Doc. No. 7.
However, Federal Rule of Criminal Procedure
6(a)(1) provides: “When the public interest so
requires, the court must order that one or more
grand juries be summoned.” Moreover, Criminal
Local Rule 6-1 of first district court provides: “The
General Duty judge of each courthouse of the
District is empowered to impanel one or more
grand juries as the public interest requires.”
“If, by fraud, collusion, trickery, and subornation
of perjury on the part of those representing the
State, the trial of an accused person results in his
conviction he has been denied due process of law.”
Lisenba v. California, 314 US 219, 237 (1941).
Because first U.S. attorney’s office has colluded
with USMS to falsify the complaint, first district
court has yet to impanel any grand jury in the
criminal case. Accordingly, former U.S. attorney
Stretch, chief Valliere, AUSA Kaleba, and marshal
O’Keefe have violated 18 USC §§ 241, 242, 371,
1512(b), and 1512(c).
-39a-

clO. Claim 10: Civil Rights Violation, Fabrication,
and Intimidation
During the May 19, 2017 detention hearing in
the criminal case, judge Spero ordered inmate’s
conditional release from Oakland Alameda County
Jail, Doc. No. 18.
Federal Rule of Criminal Procedure 5.1(f)
provides: “If the magistrate judge finds no probable
cause to believe an offense has been committed or
the defendant committed it, the magistrate judge
must dismiss the complaint and discharge the
defendant.”
Because first U.S. attorney’s office has colluded
with USMS to falsify both the complaint and
indictment, judge Spero should have dismissed the
criminal case and discharged inmate. Instead,
judge Spero ordered inmate’s release from prison
under the condition that he undergo psychological
examination.
In so doing, judge Spero, former U.S. attorney
Stretch, chief Valliere, AUSA Kaleba, and attorney
Thompson have violated 18 USC §§ 241, 242, 371,
1512(b), and 1512(c), while marshal O’Keefe has
violated 18 USC §§ 241, 242, 371, and 1512(b).
ell. Claim 11: Civil Rights Violation, Fabrication,
and Intimidation
Judge Koh recused herself from the criminal case
on May 11, 2017, Doc. No. 10. Judge Freeman
recused herself from said case on May 12, 2017,
Doc. No. 12.
-40a-

28 USC § 455(b)(1) requires a federal judge to
disqualify herself where she has “personal
knowledge of disputed evidentiary facts concerning
the proceeding.”
Knowing that first U.S. attorney’s office has
colluded with USMS to falsify both the complaint
and the indictment, judge Koh and judge Freeman
recused themselves from the criminal case so as to
evade dismissing said case. Both judges have
violated 18 USC §§ 241, 242, 371, 1512(b), and
1512(c).
cl2. Claiml2: Civil Rights Violation, Fabrication,
and Intimidation
Judge Davila recused himself from the criminal
case on May 11, 2017, Doc. No. 7.
Nonetheless, Criminal Local Rule 18-l(c) of first
district court provides: “Unless otherwise ordered,
the Clerk shall assign all criminal actions and
proceedings involving offenses allegedly committed
in the counties of Santa Clara, Santa Cruz, San
Benito or Monterey to a judge assigned to the San
Jose Courthouse.”
Since the alleged crime originated from his
courtroom, the clerk’s office should have assigned
the criminal case to judge Davila first. Yet judge
Davila recused himself from the case without being
assigned to said case. Thus, the clerk’s office has
falsified filing judge Davila’s recusal from the
criminal case.
On May 12, 2017, the clerk’s office reassigned
-41a-

the criminal case to judge Chesney, Doc. No. 13.
The reassignment has resulted from both judge
Koh’s and judge Freeman’s recusals from the
criminal case. In order for the clerk’s office to
legally reassigned the case to judge Chesney, judge
Davila has to recuse himself from the criminal case.
Since the clerk’s office has falsified filing judge
Davila’s recusal from the criminal case, judge
Chesney has falsified said recusal.
Thus, the clerk’s office has colluded with judge
Chesney to falsify her assignment to the criminal
case
in
order
that
she
could
impose
unconstitutional 18 USC §§ 4241-4248 on inmate,
infra. Both judge Chesney and clerk Soong have
violated 18 USC §§ 241, 242, 371, 1512(b), and
1512(c).
cl3. Claim 13: Civil Rights Violation, Fabrication,
and Intimidation
On May 15, 2017, attorney Thompson moved for
psychiatric examination on inmate in the criminal
case, Doc. No. 15. During a June 7, 2017 hearing in
the case, judge Chesney continued the hearing on
said motion until July 26, 2017, Doc. No. 25.
Pretrial psychiatric examination denies inmate
Fifth
Amendment
privilege
against
self­
incrimination and Sixth Amendment right to
counsel. Estelle v. Smith, 451 US 454 (1981). Thus,
both judge Chesney and attorney Thompson have
violated 18 USC §§ 241, 242, 371, 1512(b), and
1512(c).
-42a-

cl4. Claim 14: Civil Rights Violation, Fabrication,
and Intimidation
On June 6, 2017, inmate moved to dismiss the
criminal case and to disqualify judge Chesney,
judge Spero, first U.S. attorney’s office, and
attorney Thompson from the case, Doc. No. 24. On
July 14, 2017, inmate moved again to dismiss the
criminal case and to disqualify both judges, first
U.S. attorney’s office, and attorney Thompson from
the case, Doc. No. 29. During a hearing later that
day, judge Spero ordered inmate to participate in
competence evaluation at University of San
Francisco, Doc. No. 30.
First U.S. attorney’s office opposed inmate’s June
6, 2017 motion to dismiss and joinder motions to
disqualify as well as his July 14, 2017 second
motion to dismiss and joinder second motions to
disqualify in the criminal case on July 25, 2017,
Doc. No. 34. On August 9, 2017, inmate walked out
of her courtroom as judge Chesney was about to
rule on said motions to dismiss and joinder motions
to disqualify. As a result, judge Chesney ordered
inmate’s arrest due to his failure to abide by judge
Spero’s order for competency evaluation, Doc. No.
37.
Since judge Spero’s July 14, 2017 order for
competency evaluation denies inmate the Fifth
Amendment privilege against self-incrimination
and Sixth Amendment right to counsel, judge
Chesney has falsified her August 9, 2017 arrest
order. Accordingly, judge' Chesney, judge Spero,
former U.S. attorney Stretch, chief Valliere, AUSA
-43a-

Kaleba, AUSA Lee, and attorney Thompson have
violated 18 USC §§ 241, 242, 371, 1512(b) and
1512(c).
cl5. Claim 15: Civil Rights Violation, Fabrication
and Intimidation
Based on judge Chesney’s August 9, 2017 arrest
order, USMS took inmate into custody on August
15, 2017, Doc. No. 41.
Federal Rule of Criminal Procedure 4(b)(ll)(B)
provides: “A warrant must describe the offense
charged in the complaint.” As first U.S. attorney’s
office has colluded with USMS to falsify the
complaint in the criminal case, judge Chesney has
directed USMS to take inmate into custody on
August 15, 2017 with falsified warrant.
Accordingly, judge Chesney has violated 18 USC
§§ 241, 242, 371, 1512(b), and 1512(c), while
marshal O’Keefe has violated 18 USC §§ 241, 242,
371, and 1512(b).
cl6. Claim 16: Civil Rights Violation, Fabrication
and Intimidation
On August 24, 2017, judge Chesney ordered
inmate to be committed to custody of the Attorney
General for a thirty-day psychological evaluation
under 18 USC § 4241(a), Doc. No. 46.
Since 18 USC §§ 4241-4248 constitute
unconstitutional criminal statutes, supra, judge
Chesney has colluded with both U.S. attorney’s
office and attorney Thompson to falsify the
-44a-

December 19, 2017 order for commitment. Thus,
chief justice Roberts, justice Kennedy, justice
Breyer, justice Ginsburg, justice Alito, judge
Chesney, former U.S. attorney Stretch, Chief
Valliere, AUSA Kaleba, AUSA Lee, and attorney
Thompson have violated 18 USC §§ 241, 242, 371,
1512(b), and 1512(c).
cl7. Claim 17: Civil Rights Violation, Fabrication,
and Intimidation
Under 18 USC § 4241(d), judge Chesney ordered
inmate to be committed to the custody of the
Attorney General and to be hospitalized in a
suitable facility on December 19, 2017, Doc. No. 62.
Because 18 USC §§ 4241-4248 constitute
unconstitutional criminal statutes, supra, judge
Cheney has colluded with both U.S. attorney’s
office and attorney Thompson to falsify the
December 19, 2017 order for commitment. Thus,
chief justice Roberts, justice Kennedy, justice
Breyer, justice Ginsburg, justice Alito, judge
Chesney, for U.S. attorney Stretch, chief Valliere,
AUSA Kaleba, AUSA Lee, and attorney Thompson
have violated 18 USC §§ 241, 242, 371, 1512(b) and
1512(c).
cl8. Claim 18: Civil rights Violation, Fabrication,
and Intimidation
On February 28, 2018, judge Chesney denied
inmate’s Second Motion to Dismiss and all previous
motions to disqualify in the criminal case, Doc. No.
63. Specifically, judge Chesney has denied inmate’s
June 7 and July 14, 2017 motions to disqualify
-45a-

attorney Thompson as defense counsel as well as
the September 18 and December 19, 2017 notices to
proceed pro se and release counsel.
“But the Constitution does not force a lawyer
upon a defendant, He may waive his Constitutional
right to assistance of counsel if he knows what he
doing and his choice is made with eyes open.”
Adams v. United States, 317 US 269, 279 (1942)
(quoting Johnson v. Zerbst, 304 US 458, 468-469
(1938)).
Thus, judge Chesney, acting U.S. attorney Tse,
chief Valliere, and attorney Thompson have
violated 18 USC §§ 241, 242, 371, 1512(b), and
1512(c), while marshal O’Keefe, acting marshal
Pettit, and warden Holland have violated 18 USC
§§ 241, 242, 371, and 1512(b).
cl9. Claim 19: Civil Rights Violation, Fabrication,
and Intimidation
Acting U.S. attorney Tse has failed to dismiss
the criminal case since former U.S. attorney
Stretch announced his resignation on January 5,
2018.
“If, by fraud, collusion, trickery, and subornation
of perjury on the part of those representing the
State, the trial of an accused person results in his
conviction he has been denied due process of law.”
Lisenba v. California at 237.
Besides, Federal Rule of Criminal Procedure
48(a) provides: “The government may, with leave of
court, dismiss an indictment, information, or
-46a-

complaint.”
Thus, acting U.S. attorney Tse has evaded
dismissing the criminal case so as to justify the
civil rights crimes by judge Chesney, first U.S.
attorney’s office, and USMS against inmate. Judge
Chesney, acting U.S. attorney Tse, former U.S.
attorney Stretch, marshal O’Keefe, and acting
marshal Pettit have violated 18 USC §§ 241, 242,
371, 1512(b), and 1512(c).
c20. Claim 20: Civil Rights Violation, Fabrication,
and Intimidation
On April 5, 2018, inmate petitioned second
district court for a Writ of Habeas Corpus, Doc. No.
Dl. The clerk’s office assigned the petition to judge
Boyle for review on April 24, 2018. Judge Boyle has
yet to respond to said petition thus for.
28 USC § 2243 provides: “A court, justice oxjudge entertaining an application for a writ of
habeas corpus shall forthwith award the writ or
issue an order directing the respondent to show
cause ..., unless it appears from the application
that the applicant or person detained is not entitled
thereto.”
Moreover, ‘[t]he Privilege of the Writ of Habeas
Corpus shall not be suspended, unless when in
Cases of Rebellion or Invasion the public Safety
may require it.” Clause 2, Section 9, Article I of the
Constitution.
Accordingly, judge Boyle’s inaction on the April
5, 2018 petition has deprived inmate of the
-47 a-

constitutional Privilege of the Writ of Habeas
Corpus. Both judge Boyle and warden Holland have
violated 18 USC §§ 241, 242, 371, 1512(b), and
1512(c).
c21. Claim 21: Civil Rights Violation, Fabrication
and Intimidation
On June 26, 2016, judge Chesney ordered inmate
to be committed at FMC-Butner for dangerousness
study under 18 USC § 4246(a), Doc. No. 74.
Because 18 USC §§ 4241-4248 constitute
unconstitutional criminal statutes, supra, judge
Chesney has colluded with first U.S. attorney’s
office to falsify her June 26, 2018 order for
commitment in the criminal case.
Moreover, 18 USC § 4247(g) provides: “Nothing
in section 4243, 4246, or 4248 precludes a person
who is committed under either of such sections
from establishing by writ of habeas corpus the
illegality of his detention.” Accordingly, judge
Chesney has falsified her June 26, 2018 order for
commitment in order to legitimize judge Boyle
depriving inmate of the constitutional Privilege of
the Writ of Habeas Corpus.
Accordingly, chief justice Roberts, justice
Kennedy, justice Breyer, justice Ginsburg, justice
Alito, judge Boyle, judge Chesney, acting U.S.
attorney Tse, chief Valliere, AUSA Kaleba, AUSA
Lee, and attorney Thompson have violated 18 USC
§§ 241, 242, 371, 1512(b), and 1512(c).

-48a-

c22. Claim 22: Civil Rights Violation, Fabrication,
and Intimidation
On June 26, 2018, judge Chesney ordered inmate
to be committed at FMC-Butner for dangerousness
study under 18 USC § 4246(a), supra. On July 2,
2018, FMC-Butner requested that inmate’s
dangerousness study be extended for another thirty
days, Doc. No. 75.
As
18
USC
§§
4241-4248
constitute
unconstitutional criminal statutes, FMC-Butner
has falsified its July 2, 2018 request for extension
in the criminal case. Warden Holland, warden
Smith, associate warden Rupska, chief Wheat, Dr.
Koch, Dr. Zonno, Dr. Graddy, case manager Griffin,
counselor Wiggins have violated 18 USC §§ 241,
242, 371, 1512(b), and 1512(c).
c23. Claim 23: 18 USC §§ 4241-4248 Constitute
Unconstitutional Criminal Statutes
Due to the statutes’ violation of relevant
provisions of the Constitution and the First,
Fourth, Fifth, and Sixth Amendments, supra, 18
USC §§ 4241-4248 constitute unconstitutional
criminal statutes.
c24. Claim 24: 18 USC § 3006A Constitute
Unconstitutional Criminal Statute
Judge van Keulen insisted on attorney
Thompson’s appointment on May 2, 2017 as
defense counsel in the criminal case under 18 USC
§ 3006A so as to legitimize her May 8, 2017 order
for mental health assessment on inmate.
-49a-

Yet “[i]t is hardly necessary to say that the right
to counsel being conceded, a defendant should be
afforded a fair opportunity to secure counsel of his
choice.” Powell v. Alabama, 287 US 45,53 (1932).
Accordingly, 18 USC § 3006A
unconstitutional criminal statute.

constitutes

c25. Claim 25: 28 USC §§ 351-364 Constitute
Unconstitutional Statutes
“The President, Vice President, and all civil
Officers of the United States, shall be removed
from Office on Impeachment for, and Conviction of,
Treason, Bribery, and other high Crimes and
Misdemeanors.” Section 4, Article II of the
Constitution.
“The Judges, both of the supreme and inferior
Courts, shall hold their Offices during good
Behaviour.” Section 1, Article III of the
Constitution.
“Judgment in Cases of Impeachment shall not
extend further than to removal from office, ... but
the Parties convicted shall nevertheless be liable
and subject to Indictment and Punishment,
according to Law.” Clause 7, Section 3, Article I of
the Constitution.
Having committed aforementioned civil rights
crimes, chief justice Roberts, justice Breyer, justice
Ginsburg, justice Alito, judge Boyle, judge Chesney,
judge Orrick, judge Koh, and judge Freeman should
face Impeachment Trial and Criminal Prosecution
as soon as practical.
-50a-

i

Nonetheless, Congress has enacted the Judicial
Conduct and Disability Act of 1980, 28 USC §§ 351364, to address judicial misconduct and disability
in federal courts. Based on the statutes’
interference
with
said
provisions
of the
Constitution, 28 USC §§ 351-364 constitute
unconstitutional statutes.
REQUEST FOR RELIEF
Inmate hereby requests the following relief:
(1) Declaratory judgment that 18 USC §§ 42414248, 18 USC § 3006A, as well as 28 USC §§ 351364 constitute unconstitutional statutes.
(2) Declaratory judgment that defendants have
committed civil rights crimes as set forth in Claim
1 through Claim 22.
(3) An order referring all defendants who are
subject to impeachment to the House Judiciary
Committee for Impeachment Trial.
(4) An order referring all defendants to the
Attorney General for Criminal Prosecution under
42 USC § 1987.
(5) An order releasing inmate from federal custody
at FMC-Butner.
(6) An order directing USMS to return all of
inmate’s property unlawfully seized by that agency.
(7) Monetary damages in the amount of
$2,000,000,000.00 against chief justice Roberts,
$1,000,000,000.00
against justice
Kennedy,
-51a-

J

$1,000,000,000.00
against
justice
Breyer,
$1,000,000,000.00
against justice
Ginsburg,
$1,000,000,000.00
against
justice
Alito,
$10,000,000.00
against
judge
Chesney,
$10,000,000.00
against
judge
Orrick,
$10,000,000.00 against judge Koh, $10,000,000.00
against judge Freeman, $10,000,000.00 against
judge Jensen, $10,000,000.00 against judge Boyle,
$7,000,000.00 against judge Spero, $7,000,000.00
against judge van Keulen, $6,000,000.00 against
clerk Soong, $7,000,000.00 against acting U.S.
attorney Tse, $7,000,000.00 against former U.S.
attorney Stretch, $6,000,000.00 against chief
Valliere, $5,000,000.00 against AUSA Kaleba,
$5,000,000.00 against AUSA Lee, $5,000,000.00
against AUSA Perez, $6,000,000.00 against
marshal O’Keefe, $6,000,000.00 against acting
marshal Pettit; $5,000,000.00 against deputy
marshal Harwell, $4,000,000.00 against CSO
Yamaguchi,
$4,000,000.00
against
CSO
Guttoruson, $7,000,000.00 against warden Holland,
$7,000,000.00 against warden Smith, $6,000,000.00
against associate warden Ruspka, $6,000,000.00
against chief Wheat, $5,000,000.00 against Dr.
Koch,
against
Dr.
Zonno,
$5,000,000.00
$5,000,000.00 against Dr. Graddy, $5,000,000.00
against case manager Griffin, $4,000,000.00
against counselor Wiggins, $6,000,000.00 against
attorney Thompson.
(8) Punitive monetary damages
aforementioned defendants.

against

the

(9) Any other relief to which inmate is entitled
under Law.
-52a-

Respectfully submitted this 25th day of September
2018.
/s/ Kuang-Bao Ou-Young
plaintiff pro se and inmate
Reg. No. 24238-111
Federal Medical Center
P.O. Box 1600
Butner, NC 27509

-53a-

APPENDIX E
IN THE UNITED STATES HOUSE OF
REPRESENTATIVES
TEWNTY-FIRST PETITION FOR
IMPEACHMENT
Complainant Kuang-Bao P. Ou-Young, a citizen
of the State of California and the United States,
petitions the honorable House of Representatives of
the Untied States for impeachment against the
following civil officers:
Roger L. Gregory, chief judge, U.S. Court of
Appeals for the Fourth Circuit;
J. Harvie Wilkinson III, circuit judge, U.S. Court
of Appeals for the Fourth Circuit;
Paul V. Niemeyer, circuit judge, U.S. Court of
Appeals for the Fourth Circuit;
Diana Gribbon Motz, circuit judge, U.S. Court of
Appeals for the Fourth Circuit;
Robert B. King, circuit judge, U.S. Court of
Appeals for the Fourth Circuit;
G. Steven Agee, circuit judge, U.S. Court of
Appeals for the Fourth Circuit;
Barbara Milano Keenan, circuit judge, U.S.
Court of Appeals for the Fourth Circuit;
James A. Wynn, Jr., circuit judge, U.S. Court of
Appeals for the Fourth Circuit;
Albert Diaz, circuit judge, U.S. Court of Appeals
for the Fourth Circuit;
Henry F. Floyd, circuit judge, U.S. Court of
Appeals for the Fourth Circuit;
Stephanie D. Thacker, circuit judge, U.S. Court
of Appeals for the Fourth Circuit;
-54a-

Pamela A. Harris, circuit judge, U.S. Court of
Appeals for the Fourth Circuit;
Julius N. Richardson, circuit judge, U.S. Court of
Appeals for the Fourth Circuit;
A. Marvin Quattlebaum, Jr., circuit judge, U.S.
Court of Appeals for the Fourth Circuit;
Allison Jones Rushing, circuit judge, U.S. Court
of Appeals for the Fourth Circuit;
Clyde H. Hamilton, senior circuit judge, U.S.
Court of Appeals for the Fourth Circuit;
William B. Traxler, Jr., senior circuit judge, U.S.
Court of Appeals for the Fourth Circuit;
Dennis W. Shedd, senior circuit judge, U.S.
Court of Appeals for the Fourth Circuit;
Terrence W. Boyle, chief judge, U.S. District
Court for eastern North Carolina; and
James C. Dever III, district judge, U.S. district
court for eastern North Carolina.
This petition is based on the federal criminal
statute against deprivation of rights under color of
law in 18 U.S.C. § 242 as well as Section 4, Article
II of the Constitution.
18 U.S.C. § 242 provides:
Whoever, under color of any law, statute,
ordinance, regulation, or custom, willfully
subjects any person in any State, Territory,
Commonwealth, Possession, or District to the
deprivation of any rights, privileges, or
immunities secured or protected by the
Constitution or laws of the United States, ...,
shall be fined under this title or imprisoned ...
-55a-

As a result of violation of this statute, federal
officials are subjected to impeachment according to
Section 4, Article II of the Constitution:
The President, Vice President, and all civil
Officers of the United States, shall be removed
from Office on Impeachment for, and
Conviction of, Treason, Bribery, or other high
Crimes and Misdemeanors.
This petition asserts that the aforementioned
federal officers have knowingly violated 18 U.S.C. §
242 in a case which complainant filed with the
district court. Upon proof of liability for such
criminal offenses, the civil officers must be
impeached and removed from office.
This petition represents a follow-up to the
Amended Eighteenth Petition for Impeachment
submitted on July 31, 2020 and supersedes the
Amended Twentieth Petition for Impeachment of .
the same date.
STATEMENT OF FACTS
1. On May 2, 2017, the U.S. attorney’s office for
northern California instituted a criminal action
against complainant at the U.S district court for
northern California (Case No. 17-cr-263-MMC,
“Criminal Case”), Doc. No. 1.
2. On December 19, 2017, U.S. district judge for
northern California Maxine M. Chesney committed
complainant to competency restoration at Federal
Medical Center (“FMC”), Butner, North Carolina,
Doc. No. 62.
-56a-

3. On April 5, 2018, complainant petitioned the
U.S. district court for eastern North Carolina for a
writ of habeas corpus (Case No. 18-hc-2081-BO).
4. Judge Chesney committed complainant to
competency evaluation at FMC-Butner on June 26,
2018, Doc. No. 74.
5. On September 17, 2018, judge Boyle
summarily dismissed complainant’s habeas corpus
case, Doc. No. G7.
6. On September 28, 2018, complainant filed a
complaint with the district court for eastern North
Carolina based on Federal Tort Claims Act
(“FTCA”) because of his imprisonment at FMCButner from February 9 until October 3, 2018
(Case No. 18-ct-3272-D, “FTCA /’), Doc. No. Ql.
7. On October 30, 2018, judge Chesney
dismissed Criminal Case without prejudice, Doc.
No. 83.
8. On October 2, 2019, judge Dever summarily
dismissed FTCA /, Doc. No. Q19.
9. On October 24, 2019, complainant appealed
from the dismissal of FTCA I to the Fourth Circuit
(Case No. 19-2216).
10. In a unanimous decision, judge Niemeyer,
judge Agee, and judge Shedd affirmed the dismissal
of FTCA Io March 12, 2020, Doc. No. R8.
11. On May 26, 2020, the Forth Circuit denied
complainant’s petition for rehearing en banc, Doc.
No. R12.
-57 ci-

GROUNDS FOR IMPEACHMENT
cl. 28 U.S.C. § 2243 provides:
A court, justice or judge entertaining an
application for a writ of habeas corpus shall
forthwith award the writ or issue an order
directing the respondent to show cause why
the writ should not be granted, unless it
appears from the application that the
applicant or person detained is not entitled
thereto.
Therefore, judge Boyle summarily dismissed
complainant’s habeas corpus case on September 17,
2018, ‘H 5. The order states:
Here, the California district court is in the
process of determining petitioner competence
to stand trial. ... Because petitioner is in the
process of exhausting his available remedies,
the instant § 2241 petition is premature. ...
Thus, the court DISMISSES the petition
without prejudice. ...
Nevertheless, the Supreme Court has held that
when a federal prisoner challenges the fact of his
physical imprisonment by way of relief seeking a
determination that he is entitled to immediate
release, his sole remedy is a writ of habeas corpus.
Preiser v. Rodriguez, 411 US 475, 488-499 (1973).
Besides, judge Chesney dismissed Criminal Case
on October 30, 2018, ^ 7. Complainant regained his
freedom the next day. Accordingly, judge Boyle has
denied complainant the Fourth Amendment right
against unreasonable seizures under color of 28
-58a-

U.S.C. § 2243.
c2. Judge Boyle dismissed complainant’s habeas
corpus case because “the California district court
[was] in the process of determining petitioner
competency to stand trial.” However, the Supreme
Court has held that such pretrial psychological
examination
violates
complainant’s
Fifth
Amendment right against self-incrimination.
Estelle v. Smith, 451 US 454, 462-463 (1981).
Accordingly,
the
dismissal
has
deprived
complainant of said Fifth Amendment right under
color of 28 U.S.C. § 2243.
c3. On September 17, 2018, judge Boyle
summarily dismissed complainant’s habeas corpus
case. Nonetheless, “[i]n almost every setting where
important decisions turn on questions of fact, due
process requires an opportunity to confront and
cross-examine adverse witnesses.” Goldberg v.
Kelly, 317 US 254, 269 (1970). Thus, the dismissal
has violated the due process clause of the Fifth
Amendment under color of 28 U.S.C. § 2243.
c4. On September 28, 2018 complainant filed a
complaint with the district court for eastern North
Carolina based on FTCA because of his
imprisonment at FMC-Butner, ‘i 6. Said complaint
challenges the constitutionality of 18 U.S.C. §§
4241-4248, 18 U.S.C. § 3006A, and 28 U.S.C. §§
351-364 as well. On October 2, 2019, judge Dever
summarily
dismissed
FTCA
I owing
to
complainant’s failure “to file an amended complaint
together with proposed summons,” ^[ 8. However,
28 U.S.C. § 2284(a) provides: “A district court of
-59a-

three judges shall be convened when otherwise
required by Act of Congress ...” and 28 U.S.C. §
2284(b)(3) proscribes: “A single judge shall not ...
enter judgment on the merits.” Accordingly,
dismissal of FTCA I has violated 28 U.S.C. §
2284(b)(3).
Moreover, Federal Rule of Civil Procedure 41(b)
provides:
If the plaintiff fails to prosecute or to comply
with these rules or a court order, a defendant
may move to dismiss the action or any claim
against it. ...
U.S. Attorney General William P. Barr or the U.S.
attorney’s office for eastern North Carolina had
failed to respond to the constitutional challenge or
the claims against federal officers or employees in
FTCA I. Moreover, “[i]n almost every setting where
important decisions turn on questions of fact, due
process requires an opportunity to confront and
cross-examine adverse witnesses.” Goldberg v.
Kelly, 317 US 254, 269 (1970). In sum, dismissal of
FTCA I has violated 28 U.S.C. § 2284(b)(3) as well
as the due process clause of the Fifth Amendment
under color of Rule 41(b).
c5. As set forth in §§ cl, c2, dismissal of FTCA I
has deprived complainant of the Fourth
Amendment right against unreasonable seizures
and the Fifth Amendment right against self­
incrimination under color of Rule 41(b).
c6. Federal Rule of Appellate Procedure 34(a)(2)
provides:
-60a-

.

Oral argument must be allowed in every case
unless a panel of three judges who have
examined the briefs and record unanimously
agrees that oral argument is unnecessary for
any of the following reasons:
(A)...(B)...
(C) the facts or legal arguments are
adequately presented in the briefs and record,
and the decisional process would not be
significantly aided by oral argument.
Accordingly, judge Niemeyer, judge Agee, and judge
Shedd affirmed the dismissal of FTCA I in a
unanimous decision on March 12, 2020, 'll 10. The
ruling states:
We have reviewed the record and find no
abuse of discretion. Accordingly, we affirm for
the reasons stated by the district court. ... We
dispense with oral argument because the facts
and legal contentions are adequately
presented in the materials before this court
and argument would not aid the decisional
process.
However,
the
Fourth
Circuit
has
filed
complainant’s motion for summary reversal as
opening brief for the appeal, Doc. No. R7. And the
U.S. Department of Justice has yet to respond to
said motion or opening brief. Moreover, it goes
without saying that the district court for eastern
North Carolina lacks the record of judge Chesney’s
dismissal of Criminal Case on October 30, 2018.
Thus, “ [i]n almost every setting where important
decisions turn on questions of fact, due process
-61a-

requires an opportunity to confront and crossexamine adverse witnesses.” Goldberg v. Kelly, 317
US 254, 269 (1970). As set forth in 3131 c4, c5, the
ruling has denied complainant the Fourth
Amendment right against unreasonable seizures,
due process of law under the Fifth Amendment,
and the Fifth Amendment right against self­
incrimination under color of said appellate rule.
c7. On May 26, 2020, the Fourth Circuit denied
complainant’s petition for rehearing en banc, % 11.
The order states:
The petition for rehearing en banc was
circulated to the full court. No judge requested
a poll under Fed R. App. P. 35. The court
denied the petition for rehearing en banc.
As set forth in % c6, the order has deprived
complainant of the Fourth Amendment right
against unreasonable seizures, due process of law
under the Fifth Amendment, and the Fifth
Amendment right against self-incrimination under
color of Fed. R. App. P. 35.
CONCLUSION
Circuit judges Gregory, Wilkinson, Niemeyer,
Motz, King, Agee, Keenan, Wynn, Diaz, Floyd,
Thacker,
Harris,
Richardson,
Quattlebaum,
Rushing, Hamilton, Traxler, and Shedd as well as
district judges Boyle and Dever have denied
complainant the Fourth Amendment right against
unreasonable seizures, due process of law under
the Fifth Amendment, and the Fifth Amendment
right against self-incrimination under color of law.
-62a-

Thus, these judges have violated 18 U.S.C. § 242
and should be impeached as well as removed from
office according to Section 4, Article II of the
Constitution.
Respectfully submitted this 10th day of August
2020.
/s/ Kuang-Bao Ou-Young
Kuang-Bao P. Ou-Young
1362 Wright Avenue
Sunnyvale, California 94087
(408) 234-2371
kbouvoung@vahoo.com
Complainant

-63a-

APPENDIX F
STATUTORY PROVISIONS INVOLVED
18 U.S.C. § 242 provides:
Whoever, under color of any law, statute,
ordinance, regulation, or custom, willfully
subjects any person in any State, Territory,
Commonwealth, Possession, or District to the
deprivation of any rights, privileges, or
immunities secured or protected by the
Constitution or laws of the United States, or to
different punishments, pains, or penalties, on
account of such person being an alien, or by
reason of his color, or race, than are prescribed
for the punishment of citizens, shall be fined
under this title or imprisoned not more than one
year, or both; and if bodily injury results from
the acts committed in violation of this section or
if such acts include the use, attempted use, or
threaten use of a dangerous weapon, explosives,
or fire, shall be fined under this title or
imprisoned not more than ten years, or both; and
if death results from the acts committed in
violation of this section or if such acts include
kidnapping or an attempt to commit aggravated
sexual abuse, or an attempt to kill, shall be fined
under this title, or imprisoned for any term of
years or for life, or both, or may be sentenced to
death.
18 U.S.C. § 4241(a) provides:
At any time after the commencement of a
prosecution for an offense and prior to the
-64a-

sentencing of the defendant, or at any time after
the commencement of probation or supervised
release and prior to the completion of the
sentence, the defendant or the attorney for the
Government may file a motion for a hearing to
determine the mental competency of the
defendant. The court shall grant the motion, or
shall order such a hearing on its own motion, if
there is reasonable cause to believe that the
defendant may presently be suffering from a
mental disease or defect rendering him mentally
incompetent to the extent that he is unable to
understand the nature and consequences of the
proceeding against him or to assist properly in
his defense.
18 U.S.C. § 4241(d) provides:
If, after the hearing, the court finds by a
preponderance of the evidence that the
defendant is presently suffering from a mental
disease or defect rendering him mentally
incompetent to the extent that he is unable to
understand the nature and consequences of the
proceedings against him or to assist properly in
his defense, the court shall commit the
defendant to the custody of the Attorney
General. The Attorney General shall hospitalize
the defendant for treatment in a suitable
facility—
(1) for such a reasonable period of time, not to
exceed four months, as is necessary to
determine whether there is a substantial
probability that in the foreseeable future he
-65a-

will attain the capacity to permit the
proceedings to go forward; and
(2) for an additional reasonable period of time
until—
(A) his mental condition is so improved that
trial may proceed, if the court finds that
there is a substantial probability that
within such additional period of time he
will attain the capacity to permit the
proceedings to go forward; or
(B) the pending charges against him are
disposed of according to law;
whichever is earlier.
If, at the end of the time period specified, it is
determined that the defendant’s mental
condition has not so improved as to permit the
proceedings to go forward, the defendant is
subject to provisions of sections 4246 and 4248.
28 U.S.C. § 455(a) provides:
Any justice, judge, or magistrate judge of the
United States shall disqualify himself in any
proceeding in which his impartiality might
reasonably be questioned.
28 U.S.C. § 1253 provides:
Except as otherwise provided by law, any party
may appeal to the Supreme Court from an order
granting or denying, after notice and hearing, an
interlocutory or permanent injunction in any
civil action, suit or proceeding required by any
Act of Congress to be heard and determined by a
district court of three judges.
-66a-

i

28 U.S.C. § 2284(a) provides:
A district court of three judges shall be convened
when otherwise required by Act of Congress, or
when an action is filed challenging the
constitutionality of the apportionment of
congressional districts or the apportionment of
any statewide legislative body.
28 U.S.C. § 2284(b)(3) provides:

,

A single judge may conduct all proceedings
except the trial, and enter all orders permitted
by the rules of civil procedure except as provided
in this subsection. He may grant a temporary
restraining order on a specific finding, based on
evidence submitted, that specified irreparable
damage will result if the order is not granted,
which order, unless previously revoked by the
district judge, shall remain in force only until the
hearing and determination by the district court
of three judges of an application for a
preliminary injunction. A single judge shall not
appoint a master, or order a reference, or hear
and determine any application for a preliminary
or permanent injunction or motion to vacate
such an injunction, or enter judgment on the
merits. Any action of a single judge may be
reviewed by the full court at any time before
final judgment.

-67 a-

